                    Alaska Bypass:
               Beyond Its Original Purpose




                           November 28, 2011




Prepared by U.S. Postal Service Office of Inspector General
            Risk Analysis Research Center
            Report Number: RARC-WP-12-005
U.S. Postal Service Office of Inspector General                             November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                   RARC-WP-12-005



              Alaska Bypass: Beyond Its Original Purpose


                                       Executive Summary

Alaska is an enormous state with few roads and many remote communities accessible
only by air. As the 20th century evolved, residents increasingly relied on the Postal
Service to carry shipments of goods from urban areas like Anchorage and Fairbanks to
these remote villages. Eventually, the Anchorage Mail Facility became overwhelmed by
the volume, and it could take weeks for some packages to arrive. In 1972, the Alaska
Bypass program was established as a mutually beneficial solution between the
U.S. Postal Service and air carriers to remove bottlenecks and improve service.

Today, shippers in Anchorage and Fairbanks prepare shrink-wrapped pallets of goods,
pay preferred ground Parcel Post rates, and deliver these full pallets directly to airlines,
thus effectively “bypassing” the Postal Service entirely. In addition to the Bypass
program, mail is also sent on the same planes to remote locations in Alaska. However,
unlike mail, which is delivered only to the Post Office or its equivalent in remote
locations, the airlines deliver Bypass orders directly to the recipient’s door. Due to the
1,000-pound minimum weight requirement for each order, the recipients in these remote
locations are usually retail merchants. The Postal Service pays rates, set by the
Department of Transportation (DOT), based on the costs incurred by the airlines. As a
result, the Postal Service’s primary role in Alaska Bypass is to pay the bills, with little
control over any other aspect of the program.

While the Alaska Bypass program started out as a thoughtful solution to a problem that
once existed, much has changed since the early 1970’s, and Bypass has evolved
beyond its original purpose. Based on the results of our research, we believe it is time
for changes to this historic program.

Key Findings:

    1. The Postal Service lost $73 million on Alaska Bypass in FY 2010 and has little
       ability to lower its costs. Additionally, a number of obstacles, including the
       Consumer Price Index (CPI) price cap, constrain the Postal Service’s ability to
       increase its prices, making these losses likely to continue in the future.

    2. Alaska Bypass is not mail. It is a freight service that includes items seemingly
       considered nonmailable anywhere else in the United States that are shipped on
       shrink-wrapped pallets that would be nonmailable themselves.

    3. Alaska Bypass provides a higher level of service in Alaska than Priority Mail, but
       at average rates lower than Parcel Post.




                                                  i
U.S. Postal Service Office of Inspector General                            November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                  RARC-WP-12-005


    4. Alaska Bypass currently supports five highly protected mainline airlines in Alaska
       and subsidizes the Alaska aviation industry.

    5. The interests of the Postal Service were not protected during the development
       and evolution of Alaska Bypass, allowing its costs to be shifted to the Postal
       Service. By pushing all the costs of reaching remote residents to the Postal
       Service, Alaska Bypass removes an incentive for the state of Alaska to develop
       infrastructure to connect its rural residents. The State of Alaska’s permanent fund
       is currently valued at almost $40 billion and could theoretically be used to pay for
       the program or improve the state’s ground and air infrastructure for the benefit of
       all Alaskans.

    6. The rates the Postal Service pays the airlines are an artifact of a bygone era of
       price regulation that has been long abandoned domestically outside the State of
       Alaska. By simply passing the costs on to the Postal Service, the Bypass
       program removes incentives for the airlines to operate more efficiently or lower
       their costs.

    7. The Rural Service Improvement Act of 2002, which attempted to modify Alaska
       Bypass to improve passenger air service, created overcapacity in passenger
       service. The proportion of empty seats on Bypass flights is now about double that
       in the continental United States. The Postal Service ends up paying for much of
       this excess capacity.

    8. Contrary to general perception, the benefits of Alaska Bypass often seem to
       accrue more to a wide variety of commercial interests in Alaska than the remote
       village residents that many believe it is intended to serve.

In this paper we discuss a number of specific options designed to reduce the costs,
increase the revenues, and make the Postal Service’s responsibilities in Alaska more
reasonable and consistent with its current role to provide universal service as it does in
every other state.




                                                  ii
U.S. Postal Service Office of Inspector General                                                                November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                                                      RARC-WP-12-005




                                                  Table of Contents

History ............................................................................................................................. 1 
          Rationale for Creating the Bypass System ........................................................... 1 
          Evolution of Bypass .............................................................................................. 3 
          Rural Service Improvement Act of 2002 ............................................................... 4 

Program Review and Assessment .................................................................................. 5 
          Steady Losses ...................................................................................................... 7 
          Antiquated Cost Regulation .................................................................................. 7 
          Low Shipping Prices ............................................................................................. 8 

Economic Impact ............................................................................................................. 9 
          Rural Residents Still Pay High Prices ................................................................... 9 
          Passenger Service Supply Greatly Exceeds Demand ........................................ 10 
          Rural Merchants Reap Benefits .......................................................................... 10 
          Alaskan Air Carriers Benefit from a Non-competitive, Regulated
          Market ................................................................................................................ 11 
          Bypass Discourages the State of Alaska from Providing
          Appropriate Infrastructure ................................................................................... 12 

Conclusion and Policy Options ...................................................................................... 13 




                                                                  iii
U.S. Postal Service Office of Inspector General                                                        November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                                              RARC-WP-12-005


                                                      Tables

Table 1             Comparison of Typical Alaska Bypass and Parcel Post
                    Operations ............................................................................................. 6 

Table 2             Adjusted FY 2010 Financials ................................................................. 7 

Table 3             Adjusted FY 2010 Financials, Costs per Pound .................................... 8 

Table 4             Alaska Bypass Program Stakeholders ................................................ 13 

Table 5             Timeline of Key Events ........................................................................ 17 

Table 6             Market Basket of Groceries for Selected Cities
                    (March 2010) ....................................................................................... 19 

Table 7             Grocery Market Basket Contents and Weights .................................... 20 


                                                      Figures

Figure 1            Map of Alaska Bypass Sites .................................................................. 2 

Figure 2            Functioning of Alaska Bypass Process ................................................ 16 

Figure 3            Picture of an Alaska Bypass Pallet ...................................................... 18 


                                                  Appendices

Appendix A          Alaska Bypass Process ....................................................................... 16 

Appendix B          Alaska Bypass Timeline ...................................................................... 17 

Appendix C          Example of an Alaska Bypass Pallet ................................................... 18 

Appendix D          Market Basket Statistics ...................................................................... 19 




                                                            iv
U.S. Postal Service Office of Inspector General                                                   November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                                         RARC-WP-12-005


                Alaska Bypass: Beyond Its Original Purpose


History

Rationale for Creating the Bypass System

Rural Alaskans have relied on the U.S. Postal Service since before statehood to deliver
necessary supplies.1 Alaska’s vast area, geography, sparse population, and limited
infrastructure have always presented a challenge to the Postal Service. The largest
state in terms of geography, Alaska is one-fifth the size of the continental United States,
but it is also one of the least populated states, with 710,000 residents.2 Alaska has
relatively few roads, leaving more than 180 of its rural communities accessible only by
air year round.

Alaska faced unique challenges as its population grew in the late 1960s and early
1970s. By 1968, Alaska had four certified mainline air carriers, and each one had a
regional monopoly and subcontracted routes for service to bush communities to small,
independent carriers.3

As the rural population increased, so did the number of air passengers, amount of
freight, and frequency of travel to rural areas. Bush package service became notoriously
slow and unreliable as subcontractors struggled to keep up with demand. The
Anchorage Main Post Office/General Mail Facility was inundated with packages,
including food and other commodities intended for rural communities. Service suffered
and perishable goods spoiled as the airlines gave passengers and their luggage priority
on the subcontracted bush carriers.

The Alaska Bypass Program was introduced in 1972 as a mutually beneficial solution
for easing Postal Service operational bottlenecks and providing more reliable rural
package service. Figure 1 on the next page depicts more than 100 of the bush sites and
air hubs currently in the Bypass Program. This intra-Alaska system allows businesses in
Anchorage and Fairbanks to ship directly to rural customers (usually retail merchants)
using a hub-and-spoke system. Major airline carriers take food items and other cargo on
pallets to hub airports.4 Smaller airline companies or independent pilots then break
down these pallets and deliver to remote bush sites. The goods “bypass” the Postal
Service entirely, saving it handling costs and time. Goods shipped via Bypass must be
ordered from authorized shippers in minimum quantities of 1,000 pounds, and Bypass

1
  Prior to the 1970 Postal Reorganization Act, the Postal Service was known as the Post Office Department, a
Cabinet-level department within the federal government.
2
  U.S. Census Bureau, “Alaska Quick Facts from the US Census Bureau,”
http://quickfacts.census.gov/qfd/states/02000.html.
3
  Bush communities is a common name for those remote communities accessible only by air.
4
  Bypass carriers are classified as mainline or bush carriers. Mainline carriers, which serve the regional hubs, have a
capacity of more than 7,500 pounds. There are currently five certified mainline carriers: Alaska Airlines, ERA Alaska,
Everts Air Cargo, Northern Air Cargo, and Lynden Air Cargo (freight only). Bush carriers, of which there are 37
approved, are authorized to carry up to 7,500 pounds.


                                                           1
U.S. Postal Service Office of Inspector General                                                November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                                      RARC-WP-12-005


pallets generally travel the same routes and in the same planes as mail. See Appendix
A for a summary of how the Alaska Bypass ordering process functions.5

                                   Figure 1: Map of Alaska Bypass Sites




Note: Some points overlap. Map only depicts air sites. Some Alaska Bypass moves by surface transportation.
Source: OIG analysis of Postal Service airstop data.




5
 For program details, see U.S. Postal Service Handbook PO-508, Intra-Alaska Mail Service by Air: Instructions for
Certificated Carriers and Bypass Shippers, January 2000, http://about.usps.com/handbooks/po508/welcome.htm.


                                                         2
U.S. Postal Service Office of Inspector General                                                    November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                                          RARC-WP-12-005


Evolution of Bypass

The creation of the Bypass program coincided with the move toward airline deregulation
in the United States during the 1970s, and this shift in aviation policy drastically affected
its development. Prior to deregulation, the airlines that flew commercial routes in the
United States were highly regulated by the Civil Aeronautics Board (CAB), which
assigned routes to specific carriers, limited market entry, and set ticket prices.6
Opponents of deregulation worried that airline service to rural communities with few
passengers would be cut, so subsidy programs like Essential Air Service (EAS) were
created to maintain rural air service. Though originally intended to end after 10 years,
the EAS still operates today, including at 45 sites in rural Alaska.7

Aside from direct subsidies, another way the federal government financially supported
passenger air travel during airline regulation was by paying airlines to carry mail. For
example, the Civil Aeronautics Act authorized the CAB to set the rates the Postal
Service would pay for airmail throughout the country, a program known as Mail Pay,
which facilitated service to rural communities by ensuring that air carriers would be
reimbursed on these routes. As the CAB was about to sunset in 1984, Congress passed
a law (Public Law 98-443) preventing the Postal Service from directly contracting for air
service in the State of Alaska. The authority to set rates the Postal Service would pay to
air carriers in Alaska was transferred to the Department of Transportation (DOT), along
with a number of other responsibilities previously held by the CAB relating to consumer
protection.8 This law effectively served to maintain the structure of airline regulation
exclusively in Alaska, with certified carriers, government set rates, and a Mail Pay-like
system. Please see Appendix B for a timeline of air service in Alaska.

This DOT’s authority was intended to transfer to the Postal Service in 1989 to allow
rates to be set by “negotiation and competitive bidding”, according to the 1984 law.9 But
the DOT’s authority was extended by Public Law 100-238 in 1988 and it eventually
became permanent.10 Further sections were added establishing the extensive
regulations that determine how Bypass carriers are selected. The provisions required
that carriers maintain a minimum number of flights to each hub. They also stated that
before the Postal Service could make network changes, such as reclassifying a bush
site to a hub where lower-cost mainline airlines could operate, it must conduct extensive
consultations with Alaskan officials and give the public 12 months’ notice.11 This
extensive public hearing process makes it difficult for the Postal Service to pursue
needed network improvements as it gives opponents wide leverage to fight proposals.




6
  Roger Mola, “Economic Regulation of Airlines,” U.S. Centennial of Flight Commission,
http://www.centennialofflight.gov/essay/Government_Role/Econ_Reg/POL16.htm.
7
  U.S. Department of Transportation Office of Aviation Analysis, “What Is Essential Air Service?” April 1, 2009,
http://ostpxweb.dot.gov/aviation/rural/easwhat.pdf, p. 1.
8
  Public Law 98-443, Secs. 3(f)(3) and 8(g)(4)(F), October 4, 1984.
9
  Public Law 98-443, Sec. 3(f)(3), October 4, 1984.
10
   Public Law 100-238, Sec. 137 (1), January 8, 1988.
11
   Ibid.


                                                           3
U.S. Postal Service Office of Inspector General                                                  November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                                        RARC-WP-12-005


Rural Service Improvement Act of 2002

As a result of the changes described above, air carriers began eliminating passenger
service in favor of carrying only profitable Bypass program pallets paid for by the Postal
Service. In response, Congress introduced the Rural Service Improvement Act of 2002
(RSIA).12 The act instituted an “equitable tender” policy for mainline carriers, giving
priority to those airlines that also carried passengers and ensuring that airlines with
more capacity were not carrying additional Bypass pallets at the expense of passenger
service. The law also established significant hurdles for new market entrants. Notably,
any carrier seeking equitable tender on an existing mainline route must maintain at least
75 percent of the number of passenger seats of the largest carrier already operating on
that route for 6 months before being allowed to receive Bypass freight.13

Senator Ted Stevens, the late Alaskan senator who championed RSIA, described the
Alaska Bypass System in the Congressional findings section of RSIA as a four-legged
stool, designed to

    1. Provide the most affordable means of delivering food and everyday necessities
       to these rural and isolated communities,

    2. Establish a system whereby the Postal Service can meet its obligations to deliver
       mail to every house and business in America,

    3. Support affordable and reliable passenger service, and

    4. Support affordable and reliable nonmail freight service.14

Stevens’s statement made clear that the objectives of the Bypass Program had
expanded well beyond the original purpose to prevent bottlenecks at Postal Service
processing facilities and improve package service to rural Alaska. While the RSIA had
many noble goals, such expansion highlighted the growing question as to whether the
Bypass Program has come to have a new purpose and if this purpose is consistent with
the goals of an independent, self-supporting Postal Service.

Over the course of its history, the Postal Service has had an important role in helping to
build the nation’s transportation infrastructure, from waterways to rail to air travel.15
Often, these efforts came at some expense to the Postal Service. It began to lose
money on mail transportation as soon as authority to negotiate prices with air carriers



12
   Public Law 107-206, Sec. 3002, August 2, 2002. Many other improvements have been made along the way to fix
the most egregious problems with Alaska Bypass. For example, industrial construction materials may no longer be
shipped via Alaska Bypass.
13
   39 USC 5402 (g)(1), (h)(1) and (h)(2). There are similar restrictions for 121 and 135 bush carriers as well.
14
   Public Law 107-206, Sec. 3002, August 2, 2002.
15
   For information on the Postal Service’s role in promoting transportation infrastructure, see U.S. Postal Service
Publication 100, The United States Postal Service: An American History 1775-2006, May 2007,
http://about.usps.com/publications/pub100/welcome.htm.


                                                          4
U.S. Postal Service Office of Inspector General                                                      November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                                            RARC-WP-12-005


was taken over by the Civil Aviation Administration (CAA) in 1938.16 These types of
losses were common when the Post Office Department was part of the Cabinet and
Congress appropriated its funds. As part of the federal government, the Post Office
Department supported programs seen as essential to the nation, such as protecting
rural citizens, who might otherwise have faced severely restricted air service or
exorbitant prices when the airline industry was deregulated.

But the Postal Service’s role changed in 1971 with the enactment of the Postal
Reorganization Act, which replaced the Cabinet-level Post Office Department with the
independent Postal Service.17 The Act directed the Postal Service to be self-supporting
and operate like a business. Accordingly, it raises revenue through the sale of postage
and does not receive appropriations for regular operating expenses.18 Given this
change, absorbing the costs of expensive programs seemingly outside of the Universal
Service Obligation no longer appears appropriate, as mail customers often now cover
those costs and would likely consider such subsidies problematic.


Program Review and Assessment
Alaska Bypass is often called Alaska Bypass Mail, but the program does not deliver
mail. Alaska Bypass ships goods and commodities that resemble freight or cargo,19 and
some of these commodities do not appear to be mailable.20 The Alaska Bypass program
allows commodities in bulk shipments destined for rural Alaska to “bypass” postal
facilities and be tendered directly to air carriers, who deliver them to the doors of
merchants serving remote residents. While Alaska Bypass pays preferred Parcel Post
rates, it is not Parcel Post. Table 1 on the next page provides an operational
comparison between Parcel Post and Alaska Bypass.




16
   R.M. Kane, “The Air Carrier Industry and Federal Legislation,” Air Transportation (Dubuque, IA: Kendall Hunt
Publishing, 2003) pp. 99-142.
17
   Public Law 91-375, August 12, 1970.
18
   The Postal Accountability and Enhancement Act of 2006 (Public Law 109-435) made further changes, which
allowed the Postal Service to retain earnings and were intended to provide it greater flexibility in pricing its products.
19
   See Appendix C for a picture of an Alaska Bypass pallet.
20
   Domestic Mail Manual (DMM) Chapter 6 states that fruits and vegetables are not mailable, but Bypass shippers
told us such items are sometimes sent via Bypass. The DMM also places specific restrictions on the mailing of liquids
that are apparently not enforced in the Bypass program. Parcel Post has a maximum weight of 70 pounds and a
maximum length plus girth of 130 inches — neither of which are directly enforced for the Bypass program. Parcel
Post has “balloon” prices and “oversized” surcharges that are, again, not directly enforced for the Bypass program.
The Postal Service does restrict some items such as Hazmats on Alaska Bypass. As such, products like bleach are
delivered to retail merchants via other means. DMM Section 601, “Mailability,”
http://pe.usps.com/text/dmm300/601.htm#1064683.


                                                            5
U.S. Postal Service Office of Inspector General                                        November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                              RARC-WP-12-005

             Table 1: Comparison of Typical Alaska Bypass and Parcel Post Operations

                                Alaska Bypass                                 Parcel Post


 Step One:        Acceptance                                  Acceptance
                  Shrink-wrapped pallets of goods are         Packages weighing up to 70 pounds are
                  prepared in a warehouse.                    accepted like any mail item.

 Step Two:        Warehouse Staging                           Mail Processing
                  Pallets that far exceed Postal Service      Single packages are sorted at a mail
                  maximum weight limits are staged for        processing facility, typically on automated
                  transport to the Anchorage or Fairbanks     equipment.
                  airport.




 Step Three:      Air Transportation                          Ground Transportation
                  Pallets are loaded onto regional airlines   Items are typically moved by truck.
                  and bush planes.




 Step Four:       Direct Delivery                             Mail Delivery
                  Alaska Bypass items are directly            In the continental U.S., Parcel Post items
                  delivered to the recipient. A typical       are delivered as mail. In Alaska, however,
                  example is shipments of merchandise         outside of major cities with roads, Parcel
                  being directly delivered to remote          Post items are delivered to Post Offices
                  merchants.                                  for pick-up by the recipient.




                                                     6
U.S. Postal Service Office of Inspector General                                                        November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                                              RARC-WP-12-005


Steady Losses

The Postal Service has lost money on the Bypass program since its inception. In fiscal
year (FY) 2010, the Postal Service lost about $73 million on Alaska Bypass.21 While the
gap between revenue and costs has declined in recent years due to general revenue
increases on heavier parcels, we estimate that Alaska Bypass still only covers about
29 percent of its costs. In other words, for every dollar the Postal Service spends on
Alaska Bypass, it loses 71 cents. This loss has to be covered by someone. If other
Postal Service revenues do not cover this cost as has been the case in the past, then
ultimately the U.S. taxpayers might have to.

                                          Table 2: Adjusted FY 2010 Financials

                                      Alaska Bypass                      Amount

                                  Revenue                              $30 million

                                  Costs                              $103 million*

                                  Loss                                ($73 million)
                              *
                                   Costs include excise taxes.
                              Source: OIG analysis of U.S. Postal Service data.



Antiquated Cost Regulation

With no highway system throughout much of Alaska and service concerns with other
means of travel, nearly all of Bypass travels by airplane. The costs for this service are
inflated by the antiquated system for setting the rates the Postal Service must pay the
Alaskan airlines. DOT determines the rates based on the airlines’ reported operating
expenses. This system provides little incentive for the airlines to reduce their costs and
gives the Postal Service limited flexibility to react to changing conditions, such as an
increase in fuel prices.22 Currently, the Postal Service pays airlines about $103 million
each year for Alaska Bypass service.23 It is believed these rates are higher than the
market rates the Postal Service would pay if it could negotiate prices directly with the
airlines. The DOT process is a legacy of past airline regulation that was designed to
support the Alaska aviation industry by subsidizing passenger service and guaranteeing
airlines successful operations. Until recently, contract rates for flying international mail
were also regulated by the DOT, but these rates were finally deregulated in 2008. 24

21
   This amount includes only the difference between what the Postal Service pays the airlines and what it receives in
revenue. It excludes administrative costs associated with the program and allocates some costs in simple ways that
may understate Bypass costs. The revenue is from the Revenue, Pieces, and Weight (RPW) system. The cost is
from the Postal Service’s accounting system combined with the Surface Air Management System (SAMS) Alaska
database. Note that without the reduction for Bulk Palletized Rate Application (BPRA), revenue would be about $36
million. BPRA divides total weight into 70-pound increments and charges the 70-pound parcel post rate for each.
22
   For example, in 2008 fuel prices increased sharply and the DOT process simply passed that increase to the Postal
Service.
23
   U.S. Postal Service Office of Inspector General (OIG) analysis of Postal Service accounting and RPW data.
24
   The Postal Service now contracts directly with the airlines for international airlift, and rates are reported to be lower.


                                                             7
U.S. Postal Service Office of Inspector General                                                 November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                                       RARC-WP-12-005


Deregulation of rates provides at least one example of how the Alaska Bypass program
could be improved.

                        Table 3: Adjusted FY 2010 Financials, Costs per Pound25

                         Alaska Bypass                                    Amount

                         Line-haul cost per pound                           $0.65

                         Ground handling cost per pound                     $0.48

                         Total Weight                                87 million pounds

                        Source: OIG analysis of U.S. Postal Service accounting and
                                weight data.

Negotiated rates could, for example, lead to lower ground handling costs. The average
ground handling rate of 48 cents per pound noted in Table 3 above seems high, since
our field research team was told by one mainline carrier in October 2010 that normal
ground handlings only cost about 5 to 7 cents per pound for each of the several
potential handlings. However, at least two factors contribute to this incongruity. First,
required delivery to the recipient’s door in Alaska, a service well beyond that accorded
mail in rural Alaska, can be very expensive and may require special equipment.
Second, the Postal Service does not have the authority to approve or deny “optional” air
carrier enhancements, such as freeze and chill rooms to store perishables, and it must
eventually pay for a share of such enhancements. That is because the DOT process
allocates all ground handling costs, including warehousing.

Low Shipping Prices

To ship Alaska Bypass freight, customers pay rates based on those for Parcel Post, but
the actual service given to Alaska Bypass differs substantially from Parcel Post. In the
continental United States, Parcel Post is a fully ground service with a delivery standard
of 2 to 8 days. It is the lowest priced general parcel product available. In Alaska,
Parcel Post has a delivery expectation of 7 to 14 days while Bypass has a service
standard of 2 to 7 days.26 Our discussions and other information collected in Alaska
suggest that Bypass service is usually very close to 2 days depending on weather and
other factors. This level of service makes it similar to Priority Mail (in the continental
United States), which is one of the Postal Service’s expedited air parcel services.
Priority Mail’s prices are higher in recognition of its better service including air
transportation if necessary. It would, therefore, seem reasonable for the Postal Service
to at the very least charge Priority Mail rates for Bypass since it generally exceeds
Priority Mail service in Alaska.



25
   Any difference between the total cost in Table 2 and the computed cost in Table 3 can be accounted for by the
excise tax which is not included in the figures in Table 3.
26
   In Alaska, both Postal Service Priority Mail and Commercial General Air Freight have a delivery standard of
3 to 5 days while Commercial-expedited Air Freight has a standard of 1 to 4 days.


                                                         8
U.S. Postal Service Office of Inspector General                                                    November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                                          RARC-WP-12-005


Prior to 1997, Alaska Bypass costs were included in the pool with all Parcel Post in the
Postal Service’s cost systems. When it became known that the Alaska Bypass losses
were starting to have a major adverse (upward) effect on Parcel Post’s cost-based
rates, domestic parcel mailers reasonably pushed the then-Postal Rate Commission
(PRC) to make changes, as they alone were paying the costs of the Alaska Bypass
subsidy. The PRC eventually approved a new method to spread the impact to all
classes of mail by creating the Alaska Air Adjustment.27 This method imagines a road
network throughout Alaska and allocates all extra costs in Alaska above this to the
Postal Service’s institutional costs to be borne by all mailers.

In 2009, a rate increase on Market Dominant classes of mail (PRC Docket No.
R2009-2) precipitated a backlash from Alaskan politicians and interest groups who were
worried about how the increase in Parcel Post rates would affect Bypass rates. In
response to such pressure, Alaska Bypass avoided the full increase in rates that other
heavy weight parcel shippers experienced because the Postal Service instituted a new
method allowing Bypass rates to be calculated by dividing the large, several hundred-
pound pallets into 70-pound increments for pricing purposes. This new method, called
Bypass Palletized Rate Application (BPRA), resulted in a lower price increase for
Bypass than for similar weight Parcel Post, even though Bypass rates were already well
below costs. We estimated that this change lowered what Bypass revenues would have
been by approximately $6 million.


Economic Impact
In the face of significant and steady losses, attempts to modify the Bypass program
have continued to be met with determined resistance from Alaska stakeholders. While
protecting one’s interests is a standard reaction to any change, some stakeholders may
be basing their resistance to Bypass Program reform on outdated assumptions. While
the interests of rural residents were at the forefront in the early years of the program,
these residents no longer appear to derive a proportional benefit.

Rural Residents Still Pay High Prices

It is often stated that shipping goods via the Bypass program is intended to keep costs
affordable for Alaskans living in remote villages. However, Alaska bush residents
continue to pay a premium for many goods, including common groceries. For example,
a 14-ounce bag of Ruffles™ potato chips in Anchorage costs $4.29 retail.28 The two
grocery stores in Bethel, a village of about 3,500 and a Bypass hub location, both

27
   The Postal Service periodically conducts a study to estimate what the cost of Alaska non-priority transportation
would be if it were transported by surface rather than by air. The last update filed in Postal Regulatory Commission
Docket No. R2005-1 used FY 2004 data, and concluded that the “surface” costs were approximately 7 percent of the
actual air costs. This adjustment is applied to both line-haul and terminal handling costs. This reduces the parcel post
cost from $116 million to approximately $8 million, with a corresponding per-piece reduction from $47.46 to $3.32.
The other 93 percent becomes a Postal Service institutional cost not attached to any product or mail class. U.S.
Postal Service Library Reference No. USPS-LR-K-36, “Calculation of Alaska Air Adjustment,” http://www.prc.gov/prc-
pages/library/detail.aspx?docketId=R2005-1&docketPart=Documents&docid=43278.
28
   OIG field research, October 2010.


                                                           9
U.S. Postal Service Office of Inspector General                                                November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                                      RARC-WP-12-005


charge customers the exact same price — $9.99 per bag.29 It could cost as little as
about 35 cents to send that bag via Alaska Bypass (as part of a 1,000-pound minimum
shipment). In addition, it is likely the Bethel grocer would pay wholesale for the Ruffles,
not the Anchorage retail price. The stores, therefore, mark up the price of Ruffles by far
more than 100 percent. In fact, the stores could possibly still offer the identical price of
$9.99 per bag profitably even if it were delivered via the private freight market, whose
rates could be five times higher (35 cents x 5 = $1.75).30

Other examples abound. Anchorage residents pay $3.49 for Colgate™ toothpaste
(5.8 ounces), which might cost as little as 14 cents to ship, but Bethel residents pay
$4.59 at the local stores. Similarly, Bethel merchants mark up a large tin of coffee by
100 percent over costs. While there are limited exceptions to this phenomenon — milk
in Bethel costs less than retail milk in Anchorage — the overall trend of extraordinarily
high prices at rural merchants is supported by statistics from the Alaska Department of
Labor and Workforce Development, which reports prices for a market basket of
groceries.31 In small remote villages serviced by Alaska Bypass, the grocery prices
seem to bear little relationship to the cost of getting the products there and may include
a variety of other factors.32

Passenger Service Supply Greatly Exceeds Demand

Rural residents derive one significant benefit from Alaska Bypass in that passenger air
service is frequent and relatively inexpensive. Alaska Bypass has contributed to the
extensive availability of passenger air service from Anchorage and Fairbanks to hub
and bush destinations. For example, there are 90 flights per month between Anchorage
and King Salmon, a town with 374 residents, but only 80 flights per month between
Anchorage and Juneau, the state capital, a city with 31,275 residents.33 In addition to
the level of service, it is interesting to note the surplus of passenger seats to Bypass
destinations. While the United States national average passenger seating capacity
utilization is over 80 percent,34 only 40 to 50 percent of passenger seats are filled to
Bypass destinations.

Rural Merchants Reap Benefits

Rural merchants seem to be among the biggest beneficiaries of the Alaska Bypass
program. Whether a grocery store or pizzeria, they have their supplies delivered quickly
to their door for a very low price. In fact, Alaska Bypass shippers pay prices based on
Parcel Post rates, not freight rates or even Priority Mail rates, although they receive

29
   Ibid.
30
   A 1990 federal government study of the mail system in Alaska estimated that the cost of sending 1,000 pounds of
Bypass from Bethel to Anchorage by air freight would cost five times that of sending it via Parcel Post ($336.00
compared to $71.60).
31
   See Appendix D for a summary of the market basket of goods.
32
   OIG research and Alaska market basket data.
33
   Juneau population includes the city of Juneau (urban population: 17,311) as well as the Greater Juneau Borough.
34
   U.S. Bureau of Transportation Statistics, http://www.bts.gov/. This information can also be developed from
http://nsflight.com/data/ANC.html.


                                                        10
U.S. Postal Service Office of Inspector General                                                     November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                                           RARC-WP-12-005


expedited treatment that often exceeds that of Priority Mail or commercial freight in
Alaska.35 The goods are actually handled like freight, a much more costly service and
one that the Postal Service does not provide customers in any other part of the country.

Since these local stores have little or no competition, they have little incentive to pass
along the significant transportation savings they enjoy. To the extent that rural
merchants realize such cost savings on Alaska Bypass deliveries, it is possible that
those savings are not fully passed along to local customers. Bypass shippers, which
prepare and coordinate shipments between the Postal Service and the airlines, provide
a valuable service and generally operate in a more competitive environment. However,
some urban shippers also maintain retail operations in rural communities, allowing them
additional benefits related to the Bypass program. It is interesting to note that one
Canadian company both ships about 25 percent of the volume out of Anchorage and
Fairbanks and also owns over 30 of the local (monopoly or near monopoly) stores.

Alaskan Air Carriers Benefit from a Non-competitive, Regulated Market

Alaskan air carriers, both mainline and bush, reap significant benefits from the Alaska
Bypass program, and more generally, the program also provides support to the aviation
industry. Further, maintenance of the aviation industry indirectly supports the tourism
industry in Alaska, another significant source of revenue for the state. The equitable
tender regulations tie Bypass directly to passenger service in Alaska by making the
provision of a minimum number of passenger flights a prerequisite for receiving
equitable tender of Bypass shipments. As indicated previously, the Congressional
findings from the introduction to RSIA cite the provision of passenger service as a goal
of the Alaska Bypass, even though there is already a federal program designed to do
just that already operating in Alaska, namely the Essential Air Service program. Finally,
the cost-regulated DOT rate system ensures that airlines’ costs are covered and there is
little incentive to reduce those costs since the Postal Service must pay them. If the
Postal Service were allowed to contract for air service at market rates, it is possible that
the service could be significantly cheaper.




35
  Priority Mail is the Postal Service’s 2-to-3-day expedited service. In the contiguous states, Parcel Post is a deferred
package service, whereby packages move via ground transportation.


                                                           11
U.S. Postal Service Office of Inspector General                                                    November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                                          RARC-WP-12-005


Bypass Discourages the State of Alaska from Providing Appropriate
Infrastructure

Because the Postal Service bears almost all the cost of delivering goods to rural
merchants, the Alaska state government does not bear the costs associated with
providing necessary air or ground infrastructure and has little incentive to increase its
responsibility. Yet the Alaska Permanent Fund had almost $40 billion by October 2011
and is projected to grow to more than $80 billion by the end of FY 2022.36 Alaska
residents have no state income tax or sales tax. They have the lowest gasoline taxes in
the United States and receive an annual dividend from the state, which in 2010 was
$1,281 per resident. The Alaska Bypass loss was about $100 per resident. The state
appears to be in the position to assume greater responsibility for the Bypass program
losses or, alternatively, to contribute toward the development of road and air
infrastructure to provide a suitable alternative to the current system.37 The state of
Alaska is currently pursuing a number highway expansion programs but these
expansions are often slow to start. For instance, there is a proposed highway from
Fairbanks to Nome. Alaska estimated that fuel, freight, and mail transport costs for the
six case study communities would decrease by about $19.1 million per year if road
transportation were used instead of air.38

Further, Alaska is accorded special treatment not provided to rural residents in other
states. Packages destined to rural customers in Montana, Idaho, and Wyoming, for
example, are processed and delivered as regular mail. The Postal Service’s restrictions
on weight and allowable material in the mail apply. Bulk shipment of goods and
commodities is not allowed via the Postal Service and must move as private freight in all
other states.

Table 4 on the next page summarizes the impacts on various Alaska Bypass program
stakeholders.




36
   The assets of the Alaska Permanent Fund are managed by a semi-independent, state-owned corporation,
established by Alaska in 1976. Funded in large part by oil revenues, the Alaska Permanent Fund is now widely
diversified across a number of financial areas. Its current balance is about $40 billion and it pays an annual dividend
to every resident. It owns such major commercial real estate in the continental United States as the upscale Tysons
Corner Center outside Washington, D.C.
37
   In at least once instance, a road was constructed to a Bypass destination, but the Bypass program continued,
albeit via tractor-trailer, and there have been complaints about the service degradation.
38
   Dowl HKM, “Western Alaska Access Planning Study: Corridor Planning Report,” prepared for the Alaska
Department of Transportation and Public Facilities,
http://www.dowlhkm.com/projects/westernalaskaaccess/January%202010%20Corridor%20Planning%20Report.pdf,


                                                           12
U.S. Postal Service Office of Inspector General                                         November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                               RARC-WP-12-005

                                Table 4: Alaska Bypass Program Stakeholders

              Stakeholders                            Benefits                    Cost Impacts

        U.S. Postal Service                       Avoids processing               Loses money

        Anchorage and Fairbanks
                                                    New industry                      None
        Cargo Fulfillment Shippers

        Mainline Air Carriers             Profitable, protected by statute            None

                                        Presumably profitable, protected by
        Bush Carriers                                                                 None
                                              statute to a degree
                                         Gains infrastructure subsidy and
        State of Alaska                                                               None
                                                   landing fees

        Retail Merchants                    Low product delivery costs                None

                                         Passenger service subsidy, but
        Rural AK Residents                                                            None
                                         minimal commodity cost savings

        U.S. Government                    Minimizes rural air subsidies              None

        Postal Ratepayers in                                                  Fund 70 percent of the
                                                    Almost none
        Continental U.S.                                                            program
     Source: OIG analysis.



Conclusion and Policy Options
The Alaska Bypass program’s original purpose to provide affordable and reliable service
to rural Alaskans and help the Postal Service operate more efficiently has morphed into
a program that puts the Postal Service in the position of financially supporting the
aviation industry, the State of Alaska, bush merchants, and others. The Postal Service
cannot afford to subsidize a service that has expanded beyond its original purpose and
does not appear essential to the Postal Service’s mission to bind the nation together
through the provision of reliable, affordable, universal mail service.

The Office of Inspector General suggests a reform of Alaska Bypass to better meet its
original goals in a more cost effective and appropriate way. Such changes may include
the following:

         The Postal Service could be allowed to negotiate rates directly with the airlines
          as it does outside of Alaska. The DOT cost-based rates provide little incentive for
          Bypass airlines to lower their costs and result in unnecessarily high costs for the
          Postal Service.

         The Postal Service could be allowed to more freely implement appropriate cost-
          savings measures. The Bypass program’s structure restricts the Postal Service
          from more efficient operations and introducing cost-saving initiatives. In addition,
          the mandatory 12-month public hearing process hinders operational changes.



                                                       13
U.S. Postal Service Office of Inspector General                             November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                   RARC-WP-12-005


       The law could be changed to eliminate the statutory restrictions on new entrants
        to the mainline and bush air carrier markets. The restrictions create a protected
        market for existing carriers and may drive up costs to the Postal Service.

       The Postal Service could at the least charge Priority Mail rates instead of lower
        Parcel Post rates. Today, recipients pay preferential ground Parcel Post rates for
        better than Priority Mail air service. Charging Priority Mail rates would be
        somewhat more consistent with the service received, but only slightly lessen the
        considerable losses of the current Alaska Bypass program.

       Alaska Bypass could be made its own breakeven program regulated by the
        Postal Regulatory Commission. Allowing the Postal Service to charge cost-based
        prices to recipients identical to the rates it pays air carriers would eliminate the
        Postal Service’s considerable losses and start to introduce appropriate
        incentives.

       The federal government or the State of Alaska could reimburse the Postal
        Service for the losses associated with this program. In addition, Alaska could use
        its funds to invest in infrastructure to better serve its residents.

       The Postal Service could be completely removed from the Alaska Bypass
        program since it plays only a minimal role in the process today outside of paying
        for it. Shipment of commodity goods to remote merchants could be ceded to the
        private sector freight market in Alaska — as it has in the other 49 states.

Without at least some of these changes or others, the Postal Service will continue to
suffer significant losses on the Alaska Bypass program at a time when it can least
afford it.




                                                  14
U.S. Postal Service Office of Inspector General          November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                RARC-WP-12-005




                                            Appendices




                                                  15
U.S. Postal Service Office of Inspector General                                                                  November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                                                        RARC-WP-12-005




Appendix A                      Alaska Bypass Process

                                  Figure 2: Functioning of Alaska Bypass Process




                                                                                 Bush Community
       7. Residents of rural 
       Alaska shop for their 
       goods at the Rural 
       Merchants’ stores. 
       Usually, only one or                                                                               5. Order is transported to a 
       two stores exist in                                                                                Hub community where large 
       each Bush community.                                                                               pallets are often broken down 
                                                                                                          and given to various Bush 
                                                                                                          Carriers.
                                                                   Bypass Hub 
                                                                   Community

                                                                                                              4. Within a particular 
                                                                                                              time frame, Assigned 
                                                     6. Order arrives in the Bush 
                                                                                                              Bypass Carrier 
                                                     community and is delivered 
                                                                                                              transports the order to 
                                                     by the airline to the Rural 
                                                                                                              a hub or sometimes 
                                                     Merchant.
                                                                                                              directly to a bush site.
                                                                                  Anchorage




1. Rural Merchant (i.e. General 
Store, Grocery Store) places order 
for goods and supplies with an 
Approved Bypass Shipper.




                                                                                         3. Order is checked in with an 
                                          2. Approved Bypass Shipper 
                                                                                         Approved Bypass Carrier at the 
                                          processes the Merchant’s order, 
                                                                                         Acceptance Point airport and 
                                          palletizes it, applies postage, and 
                                                                                         moved to the Carrier’s holding 
                                          relinquishes the pallets to an 
                                                                                         facility to await transportation.
                                          Assigned Bypass Carrier based at 
                                          the Acceptance Point airport 
                                          (Anchorage or Fairbanks).


Source: OIG field research.




                                                              16
U.S. Postal Service Office of Inspector General                                       November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                             RARC-WP-12-005




Appendix B               Alaska Bypass Timeline

                                     Table 5: Timeline of Key Events

          Year                                                 Event
        1924-25              Airmail Service in Alaska begins. Kelly Act initiates comprehensive
                             airmail service throughout the United States.

          1930               Airmail Act of 1930 creates first mail-based subsidy for commercial
                             airlines. Pays for planes’ capacity rather than for actual weight carried.

          1938               Civil Aviation Act creates Mail Pay, first formalized commercial
                             aviation subsidy targeted at service in rural communities. CAA set pay
                             rates.

          1968               Four airlines given exclusive certifications for delivery of mail within
                             the state of Alaska.

          1972               Bypass System begins.

          1978               Airline Deregulation Act deregulates airlines throughout the United
                             States. Essential Air Service institutes a subsidy to protect rural
                             passenger air service.

          1984               Provision added to Title 39 preventing Postal Service from directly
                             contracting for air service within the state of Alaska.

          1988               Regulations added to Bypass including a minimum number of flights
                             for airlines and public notice requirements for the Postal Service.

          2002               RSIA (Rural Service Improvement Act) creates equitable tender for
                             carrying Bypass and gives preference to passenger carriers.

          2009               BPRA (Bypass Palletized Rate Application) introduced to lessen the
                             impact of the heavyweight Parcel Post price increase.




                                                   17
U.S. Postal Service Office of Inspector General                              November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                    RARC-WP-12-005




Appendix C                Example of an Alaska Bypass Pallet

                              Figure 3: Picture of an Alaska Bypass Pallet




Source: OIG field research.




                                                  18
U.S. Postal Service Office of Inspector General                                                 November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                                       RARC-WP-12-005




Appendix D                 Market Basket Statistics

The Alaska Department of Labor and Workforce Development produces a monthly
publication entitled Alaska Economic Trends. The August 2010 issue focuses on cost of
living and provides a wealth of information about prices throughout Alaska. It includes
prices for a market basket of groceries for a week for a family of four in many cities and
towns throughout the state.39

                         Table 6: Market Basket of Groceries for Selected Cities
                                             (March 2010)

                                          City                            Cost

                           Anchorage                                    $123.89

                           Bethel                                       $251.75

                           King Salmon                                  $304.87

                           Source: University of Alaska Fairbanks August 2010 survey.

The price information is from the University of Alaska Fairbanks, which performs a
quarterly survey of individual item grocery prices throughout the state. All together, the
market basket weighs approximately 162 pounds, and its contents can be viewed in the
table on the next page.40 Bypass shipping to both Bethel and King Salmon from
Anchorage would cost $62. So the price in the two communities, with the Anchorage
retail profit margin already built in, would be approximately $124 plus $62, or $186. Yet,
the price to the consumer is 30 percent higher in Bethel and 60 percent higher in King
Salmon.

These communities are both in southwest Alaska and are both Bypass hubs.41 One
difference, however, is the number of grocery stores. Bethel has two, Alaska
Commercial Company and Swanson. King Salmon has only one, the Alaska
Commercial Company, although the Naknek Trading Company is located about
15 miles down the road in Naknek. Automobile ownership does not seem to be
universal. For example, we observed many pedestrians in Bethel who appeared to be
walking long distances. There is no public transportation, although taxis are plentiful, but
very expensive.




39
   Neal Fried, “The Cost of Living in Alaska,” Alaska Economic Trends,” 30 No. 8 (August 2010)
http://labor.alaska.gov/trends/aug10.pdf, p. 8.
40
   A detailed list of the market basket’s contents per month is available on the University of Alaska Fairbanks
Cooperative Extension Service’s website at http://www.uaf.edu/files/ces/fcs/foodlist.xls.
41
   The DOT rate paid by the Postal Service to transport this weight to Bethel, about $112, is somewhat higher than
the rate to transport it to King Salmon, about $96, because of a slight difference in distance.


                                                         19
U.S. Postal Service Office of Inspector General                                          November 28, 2011
Alaska Bypass: Beyond Its Original Purpose                                                RARC-WP-12-005

                         Table 7: Grocery Market Basket Contents and Weights

                            Number of          Total Gross
  Product Class                                                                Examples
                            Products             Weight

Fresh Fruit and                  13              19 pounds     White Potatoes, Onions, Oranges
Vegetables

Canned Goods                     21              38 pounds     Green Beans, Peaches, Canned Apple
                                                               Juice, Canned Chili w/Beans

Dry Goods                        29              27 pounds     Rice, Potato Chips, All Purpose Flour, Sugar
                                                               (granulate), Coffee

Meat, Eggs, and                  26              53 pounds     Eggs (dozen), Ground Beef, Bacon, Butter,
Dairy                                                          Milk

Frozen Goods                     7                9 pounds     Frozen Pie Crust, Frozen Orange Juice
                                                               Concentrate

Other                            7               14 pounds     Coke (2 Liter), Peanut Butter, Mayonnaise

Total                           103            162 pounds
Source: OIG analysis of University of Alaska Fairbanks data.




                                                        20
